                            SOCIAL SECURITY
                            Office of the Inspector General

                                   September 9, 2011


The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

I am pleased to provide you with the enclosed report addressing your April 14, 2011
request for a review of services for which the Social Security Administration (SSA) could
charge user fees and, in so doing, cover all or a portion of its costs.

Thank you for bringing your concerns to my attention. My office is committed to
performing reviews that identify areas in which SSA can improve the effectiveness and
efficiency of its programs and operations. The report highlights various facts pertaining
to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure

cc:
Michael J. Astrue




             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

  Social Security Administration
      Field Office User Fees


          A-04-11-01118




          September 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE
The objectives of our review were to (1) identify additional services and records for
which the Social Security Administration (SSA) could charge a fee to capture all or a
portion of its costs; (2) evaluate how charging a fee would impact SSA’s workload and
customer behavior; and (3) assess the validity of SSA’s estimate that it costs $26 for
every remittance processed at the field offices and, if accurate, possible methods for
SSA to reduce this cost.

BACKGROUND
In an April 14, 2011, letter to the Inspector General, the Honorable Sam Johnson,
Chairman, Subcommittee on Social Security, Committee on Ways and Means, asked
that we (1) identify services for which SSA could charge user fees and, in so doing,
cover all or a portion of its costs; (2) determine whether such charges could reduce
SSA’s workload by affecting customer behavior; and (3) assess the validity of SSA’s
estimate that it costs $26 for every remittance processed at its field offices.

SSA provides face-to-face services to its customers through a network of about
1,300 field offices throughout the United States and its territories. In Fiscal Year
(FY) 2010, field offices assisted over 45 million customers with a variety of services,
including applying for benefits under SSA’s Old-Age, Survivors and Disability Insurance
and Supplemental Security Income (SSI) programs; processing applications for original
Social Security numbers (SSN) or replacement SSN cards; processing post-entitlement
actions and status changes; performing SSI redeterminations; and responding to many
other requests for help and information.

Unlike many private and public sector entities, SSA generally does not charge
customers fees for services it deems program-related. That is, it does not charge fees
for services related to its core mission of processing claims, assigning SSNs, posting
wages, and performing post-entitlement work. However, in certain situations, SSA
charges fees for non-program-related services such as providing information to third
parties or individuals. The Social Security Act, Freedom of Information Act, and Privacy
Act of 1974 (Privacy Act) provide the public the right to request information about
themselves and the Government. 1 These laws, as well as SSA regulations, provide the
Agency the authority to charge fees for certain information requests.2 Generally, the
regulations allow SSA to recover its costs for searching, copying, and certifying


1
    Social Security Act § 1106, 42 U.S.C. § 1306, 5 U.S.C. § 552, and 5 U.S.C. § 552a, respectively.
2
 Social Security Act § 1106(c), 42 U.S.C. § 1306(c), 20 C.F.R. §§ 401.95 and 402.165,
5 U.S.C. § 552(a)(4)(A)(i), and 5 U.S.C. 552a(f)(5).



SSA Field Office User Fees (A-04-11-01118)                                                             1
information in its system of records. The fees compensate SSA for its work, so the
Social Security Trust Funds do not bear the costs of such activities. In FY 2010, SSA’s
field offices collected 31,557 fee remittances totaling almost $1.9 million.

We previously issued two reports discussing SSA charging fees for certain services. In
May 1997, we issued an evaluation report on Canada’s Experience in Charging a User
Fee for Social Insurance Number Cards (A-06-97-62003). While several differences
existed between the two countries, we noted that Canada’s experience charging user
fees for Social Insurance Number cards was positive and favorably accepted by its
constituents. To help cover its cost for processing the SSN workload, we recommended
that SSA charge a fee for issuing replacement Social Security cards. However, SSA did
not implement our recommendation.

In an August 2009 report, Field Office Procedures for Charging and Collecting Fees
(A-04-09-19041), we determined that SSA’s policies and procedures governing field
office collection of fees for information requests could be improved. Specifically,
policies, procedures, and field office practices did not ensure the consistent
determination and collection of fees. In this report, we made several recommendations
that the Agency agreed to implement. These recommendations included clarifying
existing policies and standardizing the fees charged for common information requests.

For purposes of this review, we focused on services SSA’s field offices provided to
customers. SSA personnel in teleservice centers, hearing offices, program service
centers, and Headquarters components provide numerous services to Agency
customers. However, we believe field office user fees could have the most significant
impact on customer behavior(s) and SSA’s workloads. Additional information regarding
our scope and methodology can be found in Appendix B.




SSA Field Office User Fees (A-04-11-01118)                                                2
                                                             Results of Review
As lawmakers address the economic difficulties being experienced nationwide, Federal
agencies, including SSA, are attempting to accomplish their missions with less funding.
Faced with this challenge, we believe SSA must set aside the status quo and be
creative. Although SSA charges user fees for certain information requests, these
collections are not consistently applied and only amounted to about $2 million in
FY 2010. SSA recently established a workgroup to develop and update certain
standardized fees. While the workgroup is in the planning and development phase, we
applaud the Agency for this effort and encourage the workgroup to consider the options
presented in this report.

Assuming the Agency adopts more streamlined and less expensive remittance
procedures, we believe SSA could implement user fees for certain high-volume services
and records processed at its field offices. Specifically, we believe SSA should consider
charging its customers standardized fees for replacement SSN cards, SSN Printouts,
and Benefit Verifications. Although we were unable to determine the specific impact
such charges would have on customer behavior and SSA’s workloads, our limited
research, discussions, and a prior review indicate that such fees would reduce requests
for these documents. In FY 2010, we estimated that the cost to SSA for processing
these three workloads was about $660 million. 3 If SSA charged a fee to recover these
costs, or avoided significant portions of these costs through decreased demand, SSA
could focus its limited resources on other critical workloads.

ADDITIONAL SERVICES FOR WHICH SSA COULD CHARGE A FEE

In addition to fees the Agency already charges for information requests, we believe SSA
should consider implementing user fees for three high-volume workloads: replacement
SSN cards, SSN Printouts,4 and Benefit Verifications.5 In FY 2010, SSA field offices
processed almost 38 million requests for these documents. Table 1 details the number
of replacement SSN cards, SSN Printouts, and Benefit Verifications SSA’s field offices
processed in FY 2010.




3
 This amount only includes the cost to SSA for processing replacement SSN cards, SSN Printouts, and
Benefit Verifications. It does not include the cost to SSA for collecting a fee, which SSA estimated to be
$26 in a 2004 analysis.
4
 SSN Printouts contain the numberholder’s name and SSN. Unlike the SSN card, the SSN Printout
contains no significant security features other than the field office stamp and employee signature.
5
  Benefit Verifications detail the type of benefit a beneficiary is receiving, the monthly benefit amount, and
the date the benefit started.


SSA Field Office User Fees (A-04-11-01118)                                                                   3
              Table 1: Number of Replacement SSN Cards, SSN Printouts,
                    and Benefit Verifications Processed in FY 2010
                                               Number of Records
                     Service/Record
                                                   Processed
                Replacement SSN Cards               11,186,797
                SSN Printouts                        7,258,492
                Benefit Verification Letters        19,380,955
                       Total                        37,826,244


We estimated that in FY 2010, it cost SSA approximately $658 million for field offices to
process these workloads. Table 2 details SSA’s FY 2010 estimated costs for
processing replacement SSN cards, SSN Printouts, and Benefit Verifications. By
recovering its costs for these workloads, we estimate that SSA could use its limited
resources on other critical Agency functions, such as processing initial disability claims
and performing SSI redeterminations and continuing disability reviews.


    Table 2: Estimate of SSA Costs of Processing Replacement SSN Cards, SSN
                      Printouts and Benefit Verifications—FY 2010
                                   Cost Per       Number of
                                                                  Total Cost of
              Service                Each          Services
                                                                  Each Service
                                    Service        Provided
    Replacement SSN Card              $32 6        11,186,797     $357,977,504
    SSN Printout                       20 7         7,258,492      145,169,840
                                          8
    Benefit Verification                8          19,380,955      155,047,640
           Total                                                  $658,194,984




6
 A representative of SSA’s Office of Budget stated that, in FY 2010, it cost the Agency about $32 to
process a replacement SSN card.
7
  SSA, Program Operations Manual System (POMS), GN 03311.007 C (April 1, 2008). According to this
policy, the Commissioner approved charging a fee for an SSN Printout requested by third parties with
appropriate consent. SSA set the fee at $46 for the first SSN Printout and $20 for each additional printout
in the request. The $46 fee consists of a $20 charge to process the SSN Printout and provide a
“match/no match” response, which covers personnel and overhead costs and is based on information
captured by SSA’s Cost Analysis System, and a $26 charge for the full cost to the Agency to process the
associated remittance.
8
  SSA could not provide a standard cost for producing Benefit Verifications. However, in our August 2009
report, Field Office Procedures for Charging and Collecting Fees (A-04-09-19041), we noted that field
office charges for this document ranged from $0 to $16. Accordingly, for our estimate, we used $8 as the
cost of processing a Benefit Verification.


SSA Field Office User Fees (A-04-11-01118)                                                               4
Replacement SSN Cards

In our May 1997 report, Canada’s Experience in Charging a User Fee for Social
Insurance Number Cards (A-06-97-62003), we recommended that SSA implement a
user fee for processing replacement SSN card applications. In our report, we noted that
Canada charged a fee for its Social Insurance Number card and that its policy was
well-established and accepted by its citizens. Additionally, although we acknowledged
various differences in the SSN and the Social Insurance Number, we noted that
Canada’s replacement card rate was about one-third the rate of the SSN card.

At the time of our review, SSA stated that it was preparing a report for Congress on the
subject and elected not to express a position on our recommendation. Nevertheless,
SSA did not implement our recommendation.

Unlike driver’s licenses and passports, SSN cards do not expire. A numberholder must
obtain a replacement SSN card (or, at a minimum, update SSA’s records) when his/her
name changes, or for a noncitizen, when his/her immigration status changes. We
understand that SSA may want to make exceptions to charging user fees in these
situations. However, for other circumstances, such as lost cards, we believe SSA
should reexamine our previous recommendation. As such, we encourage SSA to
include user fees for replacement SSN cards in its ongoing workgroup efforts.

SSN Printouts

SSA charges third parties $46 for SSN Printouts when the numberholder provides the
requestor consent to obtain the document from SSA. However, the Agency does not
charge the numberholder for this same information when he/she obtains it for
him/herself. We have conducted two reviews examining controls over SSN Printouts.9
In each, we noted that the demand for SSN Printouts had increased significantly since
SSA first began issuing these documents. In FY 2004, SSA issued about 5.3 million
SSN Printouts, and by FY 2009, this number had grown to over 7 million.

We believe one of the main drivers of demand for the SSN Printout is third parties who
want to verify an individual’s SSN. As confirmed by our observations and interviews
with field office managers, State Departments of Motor Vehicles (DMV) and employers
are the third parties that most frequently ask numberholders to obtain SSN Printouts.
However, many other third parties, such as State Social Service organizations, schools,
banks, and other Federal agencies, may also request that numberholders obtain a
Printout. These organizations know the document is free and immediate. However, we
believe if SSA were to charge numberholders a fee for the SSN Printout, the demand



9
 SSA, OIG, Controls for Issuing Social Security Number Verification Printouts (A-04-07-27112),
December 2007. As of July 2011, the draft report resulting from our second review is with SSA for
comment. We anticipate its final release by the end of FY 2011.



SSA Field Office User Fees (A-04-11-01118)                                                          5
would decrease. Current law10 allows SSA to recover the cost of providing these
documents to individuals, but in the past, SSA has elected not to do so. We encourage
SSA to consider fees for SSN Printouts as part of its workgroup’s efforts.

Benefit Verifications

The Social Security Act and its implementing regulations 11 allow SSA to charge fees for
information requests, such as Benefit Verifications. However, SSA policy deemed
requests for these verifications to be program-related and therefore the Agency does
not charge the beneficiary, his/her family members, or representative payees a fee for
these documents. 12

In the announcement of this policy, 13 SSA stated that, “Historically, SSA has provided
benefit verification directly to the individual to whom it belongs as a public service. It is
in the best interest of the Social Security Administration to have a public well informed
about their benefits under Social Security programs.” However, our 2009 audit showed
that not all field offices had implemented this policy, and some still charged for Benefit
Verifications. Additionally, while a well-informed public may be ideal, we believe the
current budget situation calls for SSA to reconsider this decision. In fact, faced with
budget cutbacks, in March 2011, SSA stopped sending annual Social Security
Statements to every eligible U.S. worker over age 25. While we do not believe the
Agency should stop providing Benefit Verifications, we believe it is reasonable to charge
a fee for the documents—especially given the size of this workload (over 19 million
processed at field offices in FY 2010).

HOW CHARGING FEES FOR SERVICES/RECORDS IMPACTS CUSTOMER
BEHAVIOR

Because of the limited time we had to conduct this audit, we did not perform a detailed
study to determine how charging fees for certain records would impact customer
behavior and SSA’s workload. However, our limited research, interviews, and a prior
review, indicate that customers would request fewer records if charged a fee and
therefore SSA’s workload would decrease.

In our May 1997 report, we noted that Canada’s replacement card rate was about
one-third the rate of the SSN card. Additionally, because Canadians were accustomed
to paying fees to the Government for various services and records, the public reaction
to fees for replacement Social Insurance Number cards was favorable. Like Americans,
Canadians typically pay fees when processing passports, driver’s licenses, and
immigration documents. Americans also pay fees for other Federal and State services.
10
     Social Security Act § 1106(c), 42 U.S.C. § 1306(c), 20 C.F.R. §§ 401.95 and 402.165.
11
     Social Security Act § 1106(c), 42 U.S.C. § 1306(c), 20 C.F.R. §§ 401.95 and 402.165.
12
     SSA, POMS, GN 03311.005 B.3.c. (June 17, 2009).
13
     Administrative Message 04209, December 27, 2004.


SSA Field Office User Fees (A-04-11-01118)                                                  6
For example, Americans pay for copies of prior year tax returns, visiting national parks,
and registering vehicles. Therefore, we believe it is reasonable that the American
public’s reaction to SSA charging fees for certain workloads would be similar to the
Canadian public.

In our research, we identified a 2011 report by the Public Sector Research Centre of
PricewaterhouseCoopers LLP, Charging Ahead: Should government charge more? 14
The report discussed whether the United Kingdom should charge its constituents more
fees for government services. The report cited several reasons for charging fees,
including the following.

• Charging could nudge people toward the “right” behavior (for example, keeping
  appointments).
• Charging could reduce public spending by lowering or shifting demand if fewer
  people request a service because they have to pay.
• Charging can raise revenue.
• Charging can be seen as fairer than a tax, in that those who use a service more pay
  more.

While this study was not conducted in the United States and is not specific to fees for
SSA’s services and records, we believe its conclusions are reasonable.

ACCURACY OF SSA’s ESTIMATE THAT IT COSTS $26 TO PROCESS A
REMITTANCE

SSA staff with whom we spoke acknowledged that the 2004 estimate, which stated it
costs field offices $26 to process a remittance, is outdated and may be inaccurate.
Since 2004, SSA has not updated the estimate to account for changes in labor and/or
overhead costs. Additionally, the field office remittance process has changed.
Accordingly, we do not believe the $26 estimate is reliable.

Nevertheless, it is our opinion that SSA’s current remittance process is cumbersome
and antiquated. Despite the changes SSA has made to the process, we believe it must
be revised before any large-volume user fees are implemented. If not, the remittance
process will add a tremendous workload burden on the field offices.

SSA staff acknowledged that the current remittance process simply will not work for
large volume collections. In fact, those with whom we spoke believe the $26 estimated
cost is irrelevant to the discussion of future user fees because the current process is not
viable. Accordingly, SSA’s user fee workgroup is in the research and planning phase of
new automated collection and remittance options for field offices.


14
   See
http://download.pwc.com/ie/pubs/2011_charging_ahead_should_government_charge_for_more.pdf.


SSA Field Office User Fees (A-04-11-01118)                                                   7
SSA’s Current Collection and Remittance Process

SSA’s 2004 analysis based its cost estimate on the remittance procedures in place at
that time. The cost included field office staff time to process the remittance as well as
overhead costs. The overhead costs totaled about $16 per remittance. Table 3 details
the estimated time for each step required to process a fee remittance.

             Table 3: Field Office Processing Times for Fee Remittances
                                          Cash           Check       Credit Card
              Process                  Remittance      Remittance    Remittance
  Explain the Fee                              1 minute     1 minute        1 minute
  Receive Payment                              1 minute     1 minute        2 minutes
  Issue Receipt                               5 minutes     5 minutes       5 minutes
  Log the Receipt                              1 minute     1 minute        1 minute
  Cash/Check to Remittance Clerk              2 minutes     2 minutes          n/a
  Provide Change                             3.75 minutes      n/a             n/a
  Complete Fee Transmittal
  Register                                    2 minutes        n/a              n/a
  Put Cash/Check in Safe                      3 minutes     3 minutes           n/a
  Update Debt Management
  System                                   5 minutes            n/a            n/a
         Total                           23.75 minutes      13 minutes      9 minutes

Since the 2004 analysis, SSA has implemented the Electronic Field Office Remittance
(eFOR) system, a Web-based program designed to assist field office staff through the
remittance process. Specifically, eFOR assists staff with entering the correct remittance
data into SSA’s Debt Management System and, when the transaction is complete,
automatically generates a customer receipt.

We reviewed the remittance process at three field offices. We found that check and
credit card transactions processed through eFOR took less time than what SSA
determined in its 2004 remittance analysis. Although eFOR appeared to improve the
remittance process, staff still had to manually input transaction data, and processing
times only improved by a few minutes.




SSA Field Office User Fees (A-04-11-01118)                                                  8
Automated Options for Future SSA Collections

The Department of the Treasury (Treasury) provides Federal agencies with electronic
systems to process cash, check, credit card, and debit card remittance transactions.
These systems include Pay.gov, 15 OTCnet, 16 and Card Acquiring Services. 17 In
general, Treasury does not charge agencies to use these applications or the data
processing and credit verification services that support the systems. However, SSA
would incur setup costs to develop interfaces with Treasury and other Agency systems,
install necessary equipment in its field offices, and train SSA personnel.

SSA’s user fee workgroup, in concert with other SSA components, is in the planning
phase for a new field office remittance process. However, representatives of this group
stated that, until they fully define user requirements, they could not provide a cost
estimate for the new system. Assuming SSA implements an automated system, such
as one of those offered by Treasury, we believe the cost of each remittance would be
nominal. As such, we encourage SSA to continue its efforts to adopt a more efficient
field office remittance process. Once completed, we believe such a system will allow
SSA field offices to collect user fees for SSN replacement cards, SSN Printouts, and
Benefit Verifications, with minimal cost and workload impact.




15
  Pay.gov is a secure Government-wide, Web based application that enables customers to make
payment from a computer with Internet access. Pay.gov provides a suite of services allowing agencies to
receive and process on-line remittances in an efficient and timely manner. The Pay.gov application
provides four types of services: Collections, Forms, Billing, and Reporting.
16
  OTCnet is a secure, Web-based application that provides electronic check capture, bank deposit, and
reporting services. Users must obtain compatible check scanning hardware.
17
  Card Acquiring Services enables Federal agencies to electronically collect customers’ point of sale
credit and debit card payments. Card Acquiring Services accepts most major credit cards and debit
cards. Users must obtain compatible credit/debit processing terminals.


SSA Field Office User Fees (A-04-11-01118)                                                              9
                                                               Conclusions
Given the current and future budget outlook for Federal agencies, we believe SSA
should consider new business practices. SSA generally has not charged user fees for
the majority of its services. However, it is our opinion that fiscal realities mandate the
Agency reconsider this position. Admittedly, fees initially may not be a popular choice.
However, our research and prior reviews indicate that similar fees have been accepted
in other countries, and may influence customer behavior and reduce SSA’s workloads.

We believe SSA could implement user fees for certain high-volume services and
records processed at its field offices. Specifically, we believe SSA should consider
charging its customers standardized fees for replacement SSN cards, SSN Printouts,
and Benefit Verifications. In FY 2010, we estimate that the cost to SSA for processing
these three workloads was about $660 million. If SSA charged a fee to recover these
costs, or avoided the costs through decreased demand, SSA could focus its limited
resources on other critical workloads. However, we believe SSA must implement an
improved remittance process before implementing such fees.

In response to a draft of this report, the Agency stated that it established a workgroup to
study the best method to standardize fees, define the business process to charge and
collect fees, and determine the costs to implement a remittance process to collect fees
for certain services. The Agency further stated that the workgroup will evaluate the
legislative changes needed to authorize SSA to charge fees for statutorily mandated
services and the use of the resulting revenues.




SSA Field Office User Fees (A-04-11-01118)                                               10
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology




SSA Field Office User Fees (A-04-11-01118)
                                                         Appendix A

Acronyms
 C.F.R.             Code of Federal Regulations

 DMV                Department of Motor Vehicles

 eFOR               Electronic Field Office Remittance

 FY                 Fiscal Year

 OIG                Office of the Inspector General

 POMS               Program Operations Manual System

 Privacy Act        Privacy Act of 1974

 SSA                Social Security Administration

 SSI                Supplemental Security Income

 SSN                Social Security Number

 Treasury           Department of the Treasury

 U.S.C.             United States Code




SSA Field Office User Fees (A-04-11-01118)
                                                                      Appendix B

Scope and Methodology
For purposes of this report, we focused solely on the services the Social Security
Administration’s (SSA) field offices provide customers. To accomplish our objectives,
we reviewed various SSA workloads to determine the services/records for which the
Agency could charge a fee. Because of time constraints, we were unable to determine
the specific impact charging a fee for services would have on customer behavior.
Therefore, we spoke with SSA officials and reviewed prior studies to understand better
how customer behavior could be impacted. We also reviewed SSA’s 2004 remittance
analysis stating that it cost $26 to process a remittance.

We also obtained field office fee data from SSA’s Debt Management System for the
period October 1, 2009 through September 30, 2010.

Additionally, we:

• Reviewed applicable sections of the Social Security Act and Privacy Act of 1974 as
  well as SSA’s regulations, policies, and procedures.
• Interviewed SSA personnel in Headquarters and field offices to determine the types
  of services and records the Agency provides to the public and third parties for which it
  could charge a fee.
• Interviewed personnel with other agencies to gain an understanding of how they
  charge and collect fees.
• Interviewed SSA personnel in selected field offices to gain an understanding of the
  remittance process.
• Interviewed personnel with the Department of the Treasury to gain an understanding
  of its Financial Management System.

Our review of internal controls was limited to gaining an understanding of SSA field
office user fees and remittance process. We performed our audit at the Office of Audit
in Atlanta, Georgia; SSA Headquarters in Baltimore, Maryland; and three SSA field
offices in Atlanta, Georgia (Marietta and Atlanta Downtown) and Birmingham, Alabama
(Birmingham Downtown). The data were sufficiently reliable to meet our objective.

The SSA entities audited were the Offices of Operations; Budget, Finance and
Management; and Systems. We conducted this performance audit from April through
July 2011 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.



SSA Field Office User Fees (A-04-11-01118)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
